        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Special Report
Recent Events Related to Ecotality,
Inc.




OAS-RA-14-01                     October 2013
                                   Department of Energy
                                      Washington, DC 20585

                                         October 31, 2013

MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Special Report on "Recent Events Related to
                          Ecotality, Inc."

BACKGROUND

The Department of Energy's Vehicle Technologies Program awarded three financial assistance
awards to subsidiary companies of Ecotality, Inc. over a 6-year period. This included two multi-
year projects awarded in 2005 and 2011, valued at about $35 million to evaluate and test specific
vehicles. Ecotality also received an American Recovery and Reinvestment Act of 2009
(Recovery Act) grant for about $100 million to deploy an electric vehicle (EV) charging
infrastructure and to collect and analyze EV usage information. For each award, Ecotality was
required to share in the cost of the projects, 20 percent for the vehicle testing awards and 50
percent for the Recovery Act grant.

In our audit of the funding to Ecotality, The Department of Energy Vehicle Technologies
Program's $135 Million in Funding to Ecotality, Inc. (OAS-RA-13-29, July 2013), we found that
the Department's management and administration of Ecotality's awards could have been
improved. On August 7, 2013, shortly after the release of our audit report, Ecotality informed
the Department that it was in financial distress and may not be able to meet its obligations under
the Recovery Act award. The Department responded on August 8, 2013, by suspending payment
under that award and directing Ecotality not to incur additional costs. Ecotality then filed a
notice of "other events" with the U.S. Securities and Exchange Commission (SEC) on
August 12, 2013, disclosing that the Company had experienced certain material adverse
financial-related developments that significantly impacted its ability to meet its ongoing
obligations. On September 16, 2013, Ecotality filed a petition for Chapter 11 Bankruptcy.

Prior to Ecotality's Chapter 11 filing, we initiated this review to determine whether the
Department was aware of, and had disclosed to the Office of Inspector General, pertinent events
that occurred prior to the completion of our previous audit related to Ecotality's ability to meet its
obligations. We also sought to determine whether the Department was effectively managing
Ecotality's awards in light of recent events.

RESULTS OF REVIEW

We found that the Department had not fully disclosed known concerns regarding Ecotality's
ability to meet its EV project obligations to the Office of Inspector General prior to completion
                                                 2

of our previous audit. Information that raised questions about Ecotality's ability to meet its
project goals, including completing planned EV charger installations and the collection of EV
usage data, was not provided even though the data had a readily apparent connection to our in-
process audit. The Department became aware of the EV project concerns at about the same time
that the Program was preparing a response to a draft of our July 2013 audit report.

Program officials asserted that the failure to disclose the information regarding Ecotality's
difficulties was unintended. Nothing came to our attention to the contrary; however, we are
deeply concerned because the information directly related to the objective of our audit, to
determine whether the Department had effectively awarded and managed funding to Ecotality.
The disclosure of issues that could have impacted project completion would have led us to
perform additional audit procedures to evaluate Ecotality's ability to fulfill its obligations under
the Recovery Act award. These issues also could have impacted our overall conclusions
regarding Ecotality's performance under the award. In response, Department officials stated that
they had always strived to fully disclose everything requested and needed for the audit and never
intended to omit anything of interest to the Office of Inspector General.

While the Department moved swiftly to suspend funding of Ecotality's Recovery Act award, it
had not taken similar action for the remaining ongoing Ecotality project. Notably, the
Department had not suspended payments under Ecotality's 2011, $26 million award to test EVs.
Even though certain mitigating actions had been initiated, we found that the Department had not
formally reviewed and documented its determination that suspension was not appropriate for the
2011 award.

                                  Disclosure of Project Concerns

We concluded that the timeline of events demonstrates that there was adequate opportunity for
the Department to provide information about its concerns regarding Ecotality's ability to meet
project objectives prior to the time the Office of Inspector General audit report was finalized.
Specifically:

    • May 21, 2013 – The Department became aware that Ecotality was not on track to meet its
      September 2013 milestone for completing charging station installations.

    • June 14, 2013 – Department officials notified Ecotality that it would be required to
      submit a corrective action plan to address problems associated with the pace of EV
      charger installations.

    • July 9, 2013 – The Department provided official comments on our draft report, about a
      month after notifying Ecotality that it would be required to prepare a corrective action
      plan. In fact, in its comments, the Department asserted that previous award
      modifications, discussed in our July 2013 audit report, made Ecotality's production and
      installation goals achievable.

Department officials stated that they did not think that the information was relevant to our audit,
which was still in process at the time. They also told us that, while they thought that the
                                                3

information merited attention on their part, they did not believe that the situation was dire
because Ecotality had not indicated in communications prior to August 7, 2013, that the
Company was in financial distress. In fact, Ecotality had recently asserted that it had received
approximately $7.5 million in capital that would have supported the completion of its obligations
under the Recovery Act project. Department officials, in response to questions regarding why
the information was not disclosed to us, contended that it was their understanding that they were
only responsible for providing feedback on our draft report's recommendations.

                                     EV Project Difficulties

For 2013, Ecotality asserted that it was planning to increase its installation rate to meet
milestones in the award agreement. However, as early as May 2013, Department officials
concluded that Ecotality would be unable to complete installations on schedule and would not
achieve required data collection milestones. As a result, in June 2013, the Department notified
Ecotality that it would be required to complete a corrective action plan describing how it would
meet the overall award requirements. As part of the corrective action plan, the Department
required Ecotality to provide several specific documents, including a certification of financial
commitment. The Department received the requested documentation and was considering the
proposed corrective actions when Ecotality made its SEC disclosure in August 2013.

Our analysis of documentation submitted by Ecotality with the corrective action plan confirmed
concerns regarding its ability to complete the Recovery Act project. In particular, the
documentation revealed that:

    • Ecotality would be unable to provide the minimum required data for about 420 charging
      stations based on its internally developed deployment projections. Ecotality's most recent
      project plan included collecting a minimum of 3 months of data from all deployed
      charging stations. As noted in our previous audit, this 3-month minimum was
      significantly lower than the original project target to collect at least 16 months of data
      from each installed unit. Ecotality proposed extending the deployment milestone from
      September 2013 to December 2013, when the project would end, as part of its corrective
      action plan response. Ecotality also proposed changing the project's infrastructure
      requirements to allow 13,000 EV chargers to be either residential or commercial rather
      than including at least 8,000 residential and 5,000 commercial units as required by the
      award. These changes, specifically including the changes in the distribution of residential
      and commercial units, were important to the project's goals. They would have further
      limited, if not virtually eliminated, data collection for certain units. As noted in our
      previous audit report, these types of changes would impact the quantity and perhaps the
      overall quality of usage data gathering and analyses. Furthermore, the Department had
      not formally analyzed the impact of the decreased data collection and analysis periods for
      a significant percentage of installed units or the ability to achieve overall project goals.

    • The cost for some commercial EV chargers was about 200 percent higher than the
      original budgeted cost per unit, and about 20 percent higher than the estimate in the
      finalized budget. Department officials cited cost overruns and charger modifications as
                                                  4

       contributing factors in Ecotality's potential inability to meet its project obligations. In
       addition, Ecotality had received reimbursement for all 200 of this type of charger, of
       which only 107 had been installed as of August 2013.

    • Although spending was in line with projections, installations had fallen significantly
      behind schedule. Specifically, installations were to be completed by the end of
      September 2013. Based on projections previously provided to us by Ecotality in January
      2013, the Company was on track from a financial standpoint. According to the scheduled
      spending rate at that time, Ecotality would have spent about $98 million by August 2013.
      The Company also stated that it would have only 32 commercial installations remaining
      as of August 2013 with all residential stations completed. Based on the documentation
      subsequently submitted by Ecotality to the Department in July 2013, however, these
      installations turned out to be drastically behind schedule. And, the planned increase in
      installation rates had not materialized as about 1,000 commercial units remained to be
      installed. In a memorandum discussing the need for a corrective action plan, a
      Department official noted that the necessary installation rate for completion was about
      one-half to one-seventh of what was needed for commercial EV chargers.

In summary, Ecotality's submission revealed data collection concerns, cost overruns, and charger
installation delays, issues that were highly relevant to our earlier audit. More importantly, the
submission raised serious questions as to whether the nearly $100 million Recovery Act project
would be fully successful in meeting project expectations. In September 2013, Department
officials commented that they did not plan to approve the proposed corrective action plan from
Ecotality as written, and the plan would have required significant modifications. As previously
noted, Ecotality had submitted the corrective action plan to the Department, but it had not been
approved by the Department at the time of the August SEC filing and subsequent bankruptcy
petition.

                                   Notice of Financial Concern

On August 7, 2013, 13 days after issuance of our audit report, Ecotality notified the Department
that it had become increasingly difficult to raise needed capital and that it may not be able to
fulfill its operational obligations, including its Department-funded Recovery Act project. Over
the next 2 days, Ecotality informed Department officials that it had hired a consulting firm for
financial and restructuring advice and that additional funding being pursued by the Company had
not been forthcoming. Department officials informed us that during this timeframe, Ecotality
also asked them to withhold payment on its most recent invoice submission for about $1 million,
made 8 days prior to the notification. Department officials said they were not certain why this
request was made, but told us that the Company indicated that it did not want to appear to be
receiving money immediately after it had notified the Department about its financial difficulties.

After receiving notification of Ecotality's August SEC filing from non-Department sources, we
followed up with Department officials who told us that they had no prior indication that Ecotality
was in financial distress. Although the Department asked Ecotality for a financial commitment
letter in June 2013, officials indicated that this was not in response to financial concerns, but
rather this was standard business practice in dealing with general project concerns. Ecotality
sent the Department a financial commitment letter on July 5, 2013, which noted that the
                                                5

Company had established a $7.5 million reserve, of which a portion would be used to fund
operations including obligations remaining under its Recovery Act project. Ecotality sent the
financial commitment letter to the Department just 38 days prior to its August 12, 2013, filing
with the SEC, indicating it had financial concerns. Further, Ecotality had publicly disclosed that
it had acquired significant funding to support ongoing operations in June 2013.

To its credit, on August 8, 2013, the Department suspended payments for the Recovery Act
award after receiving notification of financial concerns from Ecotality. In particular, Ecotality
was notified that it was not authorized to incur any new costs or obligations under the award
while the Department investigated the situation and a determination could be made on whether
the award should continue. As of August 14, 2013, Department officials stated that Ecotality had
not provided them information beyond that made available to the general public concerning the
status of the $7.5 million reserve or its current financial status. On September 16, 2013,
Ecotality filed a petition for Chapter 11 Bankruptcy.

                                     Vehicle Testing Award

Despite concerns about Ecotality's viability and its actions to suspend the Recovery Act award,
the Department continued funding the $26 million advanced vehicle testing project awarded in
2011. Funding for the award was separated into five separate budget periods, with the award
scheduled to end in September 2016. When discussing the possibility of suspension, Department
officials told us:

    • They did not have a legal basis to suspend the award because the project had progressed
      in accordance with its terms and conditions and there was not a material non-compliance;

    • The risk to the Government was minimal because the vast majority of the Company's
      non-Federal cost-share was provided by third parties;

    • In-process vehicle testing activities were permitted to proceed in order to protect the
      value of Federal investment in tests that were underway;

    • Ecotality provided assurances that the project was not affected by the Company's
      financial difficulties; and

    • They directed Ecotality not to purchase additional testing vehicles or equipment.

This information notwithstanding, we are concerned that the Department had not formally
reviewed and documented its determination on Ecotality's ability to comply with its 2011 award
requirements. Specifically, in regard to the Department's statement that it had directed Ecotality
not to purchase additional vehicles, we found that this requirement was conveyed in an informal
email. In fact, on August 13, 2013, the day after its SEC disclosure regarding financial concerns,
Ecotality requested advanced payment from the Department to purchase additional vehicles
noting "cash shortage" concerns. The Department responded by email stating, "given the current
situation…we should hold off on acquiring additional vehicles," which constituted the extent of
the "direction" referenced by Department officials. Additionally, while we understand the
                                                 6

Department is bound by legal and award requirements, the terms and conditions of Ecotality's
2011 award stated that upon occurrence of insolvency, bankruptcy or receivership issues, the
Department reserves the right to conduct a review to determine compliance with the required
elements of the award, to include cost-share, progress towards technical project objectives, and
submission of required reports. Ecotality's current and future financial uncertainty underscores
the importance of formalizing reviews and documenting decision-making processes to ensure
that the Department has taken every action available to safeguard taxpayer dollars and initiate
suspension actions if necessary in the future. Department officials told us that in light of the
recent bankruptcy filing, Ecotality's ability to perform on the 2011 award would be reassessed.

                                         Status of Awards

For the Recovery Act award, even though $2.5 million in unexpended funds remained as of the
date of the suspension, Department officials stated that Ecotality claimed it would need about
$10.3 million to complete the project. We were unable to substantiate this projection. As of the
August 2013 suspension, Ecotality had been reimbursed for about $97.5 million of its $100
million award.

In January 2013, Ecotality requested a 1-year extension for its 2011 award through January 2014,
to complete required tasks in its first budget period. This request was approved by the
Department. According to the last progress report submitted in July 2013, Ecotality had
purchased 14 vehicles with its project funding between January and June 2013 and continued
testing on other previously purchased vehicles. Additionally, Ecotality continued submitting
invoices for reimbursement, with three invoices submitted between August 27, 2013, and
September 23, 2013, all within 45 days of the August SEC filing.

After receiving the recent reimbursement requests, Department officials withheld payment on the
invoices pending further review. On October 1, 2013, management officials notified us that the
Department had the ability to continue its hold on payments in anticipation that funds may be
due under the Recovery Act award. Those officials noted, however, that they elected not to do
so because Ecotality's performance on this award had been satisfactory and because they did not
wish to risk disruption or termination of testing activities. As previously noted, considering the
financial condition of Ecotality, we believe that the project objectives could still be in jeopardy.
As of October 2013, Ecotality had been reimbursed about $2.7 million of the $6 million it was
authorized to spend during the first budget period.

                               Favorable Actions and Path Forward

Management told us that as a result of our July 2013 audit report, it had taken action designed to
improve financial assistance award management. Specifically, Department officials distributed a
memorandum to project management officials that addressed opportunities to enhance project
management practices. The memorandum focused on weaknesses in the areas of documenting
alternatives reviewed as well as the allowability, allocability and reasonableness of third party in-
kind cost-share. The memorandum further directed the project management officials to fully
consider alternatives and the corresponding implications to the Government and to ensure that
the negative and positive aspects of various options are documented. In regard to cost-share, the
memorandum stated that project management officials should ensure proposals for third party,
                                                  7

in-kind contributions are assessed and documented within technical evaluations of costs. Those
evaluations should include the value of the project to the Department, assumptions or data used
for analyses, rationale for approval of cost-share contributions, and references to applicable
sections of Federal regulations. Finally, for both areas of emphasis, the memorandum stated that
project management officials should ensure completed documentation was entered into
appropriate Department databases.

In addition, Department officials reiterated that the non-disclosure was not intentional, but was
based on a misunderstanding of when audit work is considered complete. In particular,
Department officials noted that once the draft audit report was issued, they assumed the audit
was complete and had not considered the information about the corrective action plan to be
relevant. In response to this information, the Office of Inspector General will work with
Department officials to ensure overall audit responsibilities and timeframes are understood.

RECOMMENDATIONS

Given concerns about Ecotality's ability to meet its financial assistance award obligations, even
with Federal funding, we recommend the Assistant Secretary for Energy Efficiency and
Renewable Energy:

    1. Determine the impact of Ecotality's financial condition on the objectives of its multiple
       ongoing financial assistance awards;

    2. Formally document decisions related to Ecotality's ongoing award for vehicle testing in
       light of its recent notification of financial concerns and its ability to sustain operations;
       and

    3. Provide training to personnel to ensure that all pertinent information is disclosed to the
       Office of Inspector General over the course of future reviews.

MANAGEMENT REACTION

Management concurred with our recommendations and indicated that it had completed or
initiated certain corrective actions. Regarding Recommendation 1, management stated it had
immediately responded to Ecotality's notification of financial concerns. The comments also
stated that through the bankruptcy proceedings, substantially all of Ecotality's assets were
subsequently acquired by three entities, two of which purchased assets pertaining to Ecotality's
financial assistance awards with the Department. Department officials informed us that the
entities have indicated an intention to seek a novation of the agreements and to continue
performing the projects. Accordingly, management stated it would work closely with these
entities and the Department of Justice toward a result that fulfills the objectives of the awards.
Completion is anticipated in December 2013. For Recommendation 2, management formally
documented the rationale and consideration for not suspending the vehicle testing award and
how it managed the award after Ecotality filed for bankruptcy. Management also stated in
response to Recommendation 3 that it had distributed the latest version of Department Order
221.2A, Cooperation with the Office of Inspector General, and had planned to conduct training
in this area for its Federal and contractor staff.
                                                 8

Management's response stated that Department officials relied on a memorandum from the
Office of Inspector General that stated the audit was performed between October 2012 and May
2013 and an entrance document which indicated that the audit verification phase was completed
when the audit report was drafted. Management also stated that it first became aware that the
audit had been extended beyond the verification phase during recent discussions and that it is
committed to working closely with the Office of Inspector General to ensure that audit
timeframes are fully understood.

AUDITOR COMMENTS

Management provided corrective actions that were responsive to our recommendations.
Regarding the sale of Ecotality's assets and the intention of other entities to continue the funded
projects, we concluded that the Department's stated approach of working with those acquiring
entities to ensure the fulfillment of the projects' objectives was responsive to Recommendation 1.
Similarly, other Department actions taken and planned were responsive to our recommendations.

Although management stated that it had relied on audit timeframes identified in our draft report
and an entrance document, the Office of Inspector General had noted in its communication to
Department officials that draft documents did not represent its final position. Further, the Office
of Inspector General held multiple meetings with officials in which it was communicated that the
audit had not been finalized. As noted in our report, the information not communicated to the
Office of Inspector General was pertinent to our previous review, would have led us to conduct
additional audit procedures, and could have altered our audit conclusions. In addition, we did
not extend the previous audit beyond the original timeframes as asserted by Department officials.
In fact, we initiated this separate, subsequent review in response to information that had not been
disclosed during our previous audit.

Management's comments are included in the Attachment.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Science and Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Chief of Staff
9
    Attachment
10
     Attachment (continued)
11
     Attachment (continued)
                                                                 IG Report No. OAS-RA-14-01


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


   Name                                       Date

Telephone                                     Organization

   When you have completed this form, you may telefax it to the Office of Inspector General at
   (202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form.
